CERTIFICATE OF COMPLIANCE
No. 19-132

LAWRENCE I. FEJOKWU,
Petitioner,
v.
COMMODITY FUTURES TRADING COMMISSION,
Respondent:

As required by Supreme Court Rule 33.1(h), I, LAWRENCE
IKEMETUNE C. FEJQKWIJ, certify that the supplementary brief in
support of petition for a writ of certiorari contains 2996 words
which is in compliance with Supreme Court Rule 33.1(g)(iv). This
word count excludes the parts of the petition that are exempted
by Supreme Court Rule 33.1(d). The word count has been
determined by the word count feature of MS Word.
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on the 24th day of September, 20

LAWRENCE IKEMEFUNE C. FEJQKWU

